 Report No. D-2011-118           September 30, 2011




 Independent Auditor's Report on the Agreed-Upon
   Procedures for Reviewing the FY 2011 Civilian
Payroll Withholding Data and Enrollment Information
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142), fax (703) 604-8932 or by mail:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations Used in the Report and the Attachments
CFC                    Combined Federal Campaign
DFAS                   Defense Finance and Accounting Service
DOE                    Department of Energy
EPA                    Environmental Protection Agency
FEGLI                  Federal Employees Group Life Insurance
FERS                   Federal Employees Retirement System
HHS                    Department of Health and Human Services
NGB                    National Guard Bureau
OCFCO                  Office of Combined Federal Campaign Operations
ODO                    Other Defense Organizations
OPF                    Official Personnel File
OPM                    Office of Personnel Management
PCFO                   Principal Combined Fund Organization
RITS                   Retirement and Insurance Transfer System
VA                     Department of Veterans Affairs
                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704

                                                                                 September 30, 20 I I


MEMORANDUM FOR ASS ISTANT SECRETARY OF THE ARMY
                  (FINANC IAL MANAGEMENT AND COM PTROLLE R)
               ASS ISTANT SECRETARY OF THE AIR FORCE
                  (FINAN C IAL MANAGEMENT AND COM PTROLLER)
               C HIEF, NATIONAL GUARD BUREAU
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERV ICE
               DIRECTOR, DEFENS E LOG ISTICS AGENCY
               NAVAL INS PECTOR GENERA L
               AUD ITO R GENERAL, DEPARTMENT OF T HE ARMY
               INS PECTOR GENERAL, DEPARTMENT OF ENERGY
               INS PECTOR GENERAL, DEPARTMENT OF HEALTH
                 AN D I-IUMAN SERVI CES
               INS PECTO R GENERAL, DEPARTMENT OF VET ERANS AFFAIR S
               INSPECTOR GENERAL, ENV IRONMENTAL PROTECTION
                 AGENCY
               INS PECTOR GENERAL, OFfiCE OF PERSONNEL MANAGEMENT


SUBJ ECT: Independent A udito r 's R eport on the Agreed-Upon Procedures for Rev iew in g th e
          FY 20 II C ivili an Payro ll Withhold ing Data and Enrollment Information
          (Report No. D-20 I I- I 18)


We are providing this fin al report for your informati on and use .

We apprec iate the courtesies extended to the staff. Pl ease direct questi ons to me at
(703) 60 1-5868 (DSN 329-5868) .



                                    f~v                  a /JJ~
                                      Patric ia A. Marsh, C PA
                                    Assistant Inspector General
                               Financ ia l Management and Reporting
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704

                                                                     September 30, 2011

The Honorable Patrick E. McFarland
Inspector General
U.S. Office of Personnel Management
Theodore Roosevelt Federal Building
1900 E Street NW, Room 6400
Washington, D.C. 20415-0001

Subject: Independent Auditor’s Report on the Agreed-Upon Procedures for Reviewing
         the FY 2011 Civilian Payroll Withholding Data and Enrollment Information
         (Project No. D2011-D000FP-0139.000)

Dear Mr. McFarland:

We performed the procedures described in the Attachment, which were agreed to by the
Chief Financial Officer and the Inspector General of the U.S. Office of Personnel
Management (OPM). We performed these procedures solely to assist in assessing the
reasonableness of the employee withholdings and employer contributions that the
Defense Finance and Accounting Service (DFAS) reported on Standard Form 2812,
“Report of Withholdings and Contributions for Health Benefits, Life Insurance, and
Retirement,” for the pay periods ending August 28, 2010; October 23, 2010; and
February 26, 2011; and reported in the “Supplemental Semiannual Headcount Report,” as
of September 1, 2010, and March 1, 2011. The reports submitted by DFAS included
information for the following entities listed in Appendix A of the Office of Management
and Budget, Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,”
as amended: the Department of Defense (DoD), Department of Energy (DOE),
Department of Health and Human Services (HHS), Department of Veterans Affairs (VA),
and the Environmental Protection Agency (EPA).

Using Audit Command Language software, we randomly selected a sample of
360 employees from the October 23, 2010, pay period from the 11 DFAS payroll data
files (Army, Navy, Air Force, Other Defense Organizations [ODO], Overseas
Army/DoD, Overseas DoD, Shipyard DoD, DOE, HHS, VA, and EPA). We compared
the sample of 360 employees’ pay and withholdings and agency contributions in the
Defense Civilian Pay System to the documentary support in the Official Personnel Files
(OPFs). Of the 360 OPFs, 180 represented DoD employees, 45 represented DOE
employees, 45 represented HHS employees, 45 represented VA employees, and
45 represented EPA employees.
Auditors from the DOE Inspector General performed the agreed-upon procedures
that involved reviewing DOE OPFs. Auditors from the I-ll-IS Inspector General
performed the agreed-upon procedures that involved reviewing I-ll-IS OPfs. We
reviewed their working papers and determined that we can rely on their work.


We performed the agreed-upon procedures in accordance with generally accepted
government auditing standards, which incorporate financial audit and attestation
standards established by the American Institute of Cettified Public Accountants.
The sufficiency of these procedures is solely the responsibility of the OPM Chief
Financial Officer and the OPM Inspector General. Consequently, we make no
representation regarding the sufficiency of the procedures either for the purpose
for which this report has been requested or for any other purpose.


We were not engaged to express an opinion on whether the Health Benefits, Life
Insurance, and Retirement contributions and withholdings and the enrollment
information submitted by DFAS to OPM are reasonable and accurate.
Accordingly, we did not conduct an examination, nor do we express such an
opinion. Had we performed additional procedures, other matters might have come
to our attention that we would have repmted to you. We provided a discussion
draft of this report to the entities listed in the transmittal memorandum.


This report is intended solely for the information and use of the OPM Chief
Financial Officer and OPM Inspector General and is not intended to be used b y
those who have not agreed t o t h e procedures or have not taken responsibility for
the sufficiency of the procedures for their purposes. However, the report is a
matter of public record and its distribution is not limited; thus, we will post the
report on our Web site and provide copies upon request.



                                      Sincerely,




                               ra/t�Uvov Q m�
                                Patricia A. Marsh, CPA
                              Assistant Inspector General
                         Financial Management and Reporting


Attachment:
As stated




                                                                                      2
Attachment: Agreed-Upon Procedures
Performed and Results
This section contains the OPM Agreed-Upon Procedures and the results of completing
those procedures.

Overall Procedure
For employee benefit withholding and contributions, obtain the Agency Payroll
Provider’s September 2010 and March 2011 Semiannual Headcount Report submitted to
OPM and a summary of Retirement and Insurance Transfer System (RITS) submissions
for September 2010 and the current fiscal year. For each program (retirement, health,
and life), select a total of three RITS submissions for September 2010 and the current
fiscal year; two will coincide with the September 2010 and March 2011 Semiannual
Headcount Report. Obtain payroll information for the periods covered by the RITS
submissions selected.

For the Combined Federal Campaign (CFC) Agreed-Upon Procedures, effective for
FY 2011, obtain the following documentation for the Federal agencies serviced by
the Agency Payroll Provider:

a) A list of all field offices/duty stations in existence during the fall 2010 CFC
solicitation period (September 1, 2010 through December 15, 2010) for each federal
agency serviced. The list must include the county, city, state and zip code for the field
office.

b) A list of all local CFC campaigns and the areas they cover. This list should be
obtained directly from the Office of Personnel Management’s (OPM) Office of CFC
Operations (OCFCO) by sending an e-mail request to cfc@opm.gov. The subject line
of the e-mail should be “Payroll Office AUPs–2010 CFC Campaign Location List
Request.”

c) A list of accounting codes used by the Agency Payroll Provider to identify each local
CFC campaign. The list should include the accounting code, name of campaign, name
of Principal Combined Fund Organization (PCFO) for that campaign, and address of
PCFO.

d) A report of all employees with CFC deductions from the RITS submission selected to
coincide with the March 2011 Semiannual Headcount. The report must include each
employee’s official duty station location and the agency payroll provider’s accounting
code identifying the campaign to which each employee’s funds are being distributed.




                                                                                Attachment
                                                                               Page 1 of 13
Procedure 1.
Compare RITS submission data with payroll information by performing the following
procedures (Note: For cross-servicing agencies, if the internal controls are the same for
all agencies serviced, it is only necessary to perform this procedure for one agency.):

Procedure 1.a.
Recalculate the mathematical accuracy of the payroll information.

Procedure 1.b.
Recalculate the mathematical accuracy of each RITS submission for the payroll
information selected in step 1.a.

Procedure 1.c.
Compare the employee withholding information at the aggregate level for Retirement,
Health Benefits, and Life Insurance (as adjusted for reconciling items) shown on the
payroll information obtained in step 1.a. to the related amounts shown on the RITS
submission for the corresponding period.

Report any differences for each of the Retirement, Health Benefits, and Life Insurance
(categories) for step 1.c. that are over 1 percent of the aggregate amount reported for each
of the three categories. Obtain from management a management official name,
an explanation, telephone number, and an email address for the differences above the
1-percent threshold.

Results
There were no differences greater than 1 percent for this comparison.

Procedure 2.
(See Procedures 2.a.-j.)

Procedure 2.a.
Randomly select a total of 25 individuals who were in the payroll system for all three of
the RITS submissions selected above that meet all the following criteria:

       •   covered by the Civil Service Retirement System or the Federal Employees
           Retirement System (FERS);
       •   enrolled in the Federal Employees Health Benefit Program;
       •   covered by Basic Life Insurance; and
       •   covered by at least one Federal Employees’ Group Life Insurance (FEGLI)
           optional coverage (Option A, B or C).

Procedure 2.b
Obtain the following documents, either in electronic or hard copy format, from the OPF
for each individual selected in step 2.a. Hard copies can be originals or certified copies.
                                                                                 Attachment
                                                                                Page 2 of 13
       •   All Notifications of Personnel Actions (SF-50) covering the pay periods in the
           RITS submissions chosen;
       •   The Health Benefits Election Form (SF-2809) covering the pay periods in the
           RITS submissions chosen or, if applicable, obtain a report (via the agency
           personnel office) from the agency’s automated system that allows participants
           to change benefits, (for example, Employee Express), for any Health Benefits
           transactions in that system for the individuals selected in step 2.a. (note: a
           new SF-2809 is needed only if an employee is changing health benefit plans,
           therefore, the form could be many years old); and
           o For Health Benefits, compare date of transaction with date on the certified
               copy of the SF-2809 or the agency’s automated system report obtained
               above to identify whether the health benefit information to be used in the
               step 2.f. covers the pay periods in the RITS submissions chosen.
       •   The Life Insurance Election Form (SF-2817) covering the pay periods in the
           RITS submission chosen (note: a new SF-2817 is needed only if an employee
           is changing life insurance coverage, therefore the form could be many years
           old).

Results
We identified 12 documents from the Navy, National Guard Bureau (NGB), ODO, EPA,
and VA that were either missing, incomplete, or processed late. DOE auditors identified
two missing documents, and HHS auditors identified three missing documents. The
following table identifies the number and type of documents missing, late, or incomplete
from the respective organization.

                  Number and Type of Missing, Late, or Incomplete
                           Documents by Organization
                  Organization             SF-50       SF-2809      SF-2817
           Navy                                                        1
           NGB                                                         1
           ODO                                             3           1
           DOE                                                         2
           EPA                                                         5
           HHS                                                         3
           VA                                1

Procedure 2.c.
For each individual selected in step 2.a., compare the base salary used for all payroll
purposes and upon which withholdings and contributions generally are based to the base
salary reflected on the employee’s SF-50. Report any differences resulting from this step
and obtain management’s explanation for the differences.



                                                                              Attachment
                                                                             Page 3 of 13
Results
We found one difference for Army and one for VA. HHS auditors identified one
difference. For these differences, the applicable SF-50 was processed late; DFAS had
made retroactive pay adjustments to the pay system amounts; or Human Resources or
DFAS management did not provide an adequate explanation.

Procedure 2.d.
For Retirement for each individual selected in step 2.a., compare the retirement plan code
from the employee’s SF-50 to the plan code used in the payroll system. Report any
differences resulting from this step and obtain management’s explanation for the
differences.

Results
We did not find any differences for this comparison.

Procedure 2.e.
For each individual selected in step 2.a., calculate the retirement amount to be withheld
and contributed for the plan code from the employee’s SF-50, by multiplying the base
salary from the employee’s SF-50 by the official withholding and contribution rates
required by law. Compare the calculated amounts to the actual amounts withheld and
contributed for the retirement plan. Report any differences resulting from this step and
obtain management’s explanation for the differences.

Results
We found one difference for Army, one for EPA, and one for VA. HHS auditors
identified one difference. For these differences, the applicable SF-50 was processed late;
DFAS had made retroactive pay adjustments to the pay system amounts; or Human
Resources or DFAS management did not provide an adequate explanation.

Procedure 2.f.
For Health Benefits for each individual selected in step 2.a., compare the employee
withholdings and agency contributions to the official subscription rates issued by OPM
for the plan and option elected by the employee, as documented by a Health Benefits
Election Form (SF-2809) in the employee’s OPF or automated system that allows the
participant to change benefits (for example, Employee Express). Report any differences
resulting from this step and obtain management’s explanation for the differences.

Results
We found three differences for ODO. The applicable SF-2809s were missing.

Procedure 2.g.
For Life Insurance for each individual selected in step 2.a., confirm that Basic Life
Insurance was elected by the employee by inspecting the Life Insurance Election Form

                                                                               Attachment
                                                                              Page 4 of 13
(SF-2817) documented in the employee’s OPF. Report any differences resulting from
this step and obtain management’s explanation for the differences.

Results
We did not find any differences for this comparison.

Procedure 2.h.
For each individual selected in step 2.a., calculate the withholding and contribution
amounts for Basic Life Insurance using the following:

       •   For employee withholdings: Round the employee’s annual base salary up to
           the nearest thousand dollars and add $2,000. Divide this total by 1,000 and
           multiply by the rate required by law.
       •   For agency contributions: Divide the employee withholdings calculated above
           by two.

Compare the calculated employee withholdings and agency contributions to the actual
amounts withheld and contributed for Basic Life Insurance. Report any differences
resulting from this step and obtain management’s explanation for the differences.

Results
We found one difference for Army and one for VA. For these differences, DFAS had
made retroactive pay adjustments to the pay system amounts or the applicable SF-50 was
processed late.

Procedure 2.i.
Also, for Life Insurance for each individual selected in step 2.a., compare optional
coverage elected as documented on the SF-2817 in the employee’s OPF to the optional
coverage documented in the payroll system. Report any differences resulting from this
step and obtain management’s explanation for the differences.

Results
We identified one difference for the Navy, one for NGB, one for ODO, and five for EPA.
DOE auditors identified two differences for DOE. HHS auditors identified three
differences. The applicable SF-2817s were missing or incomplete; or Human Resources
or DFAS management did not provide an adequate explanation for the difference.

Procedure 2.j.
For each individual selected in step 2.a., calculate the withholding amounts for optional
life insurance using the following:

       •   For Option A: Locate the employee’s age group using the age groups provided
           for Option A in the FEGLI Program Booklet. The withholding amount to be
           used is the rate listed in the FEGLI Program Booklet for that age group.

                                                                                Attachment
                                                                               Page 5 of 13
           Compare the calculated amount to the amount withheld for Option A Life
           Insurance. Report any differences resulting from this step and obtain
           management’s explanation for the differences.

       •   For Option B: Inspect the SF-2817 to obtain the number of multiples chosen
           for Option B. Locate the employee’s age group using the age groups provided
           for Option B in the FEGLI Program Booklet. Round the employee’s annual
           rate of basic pay up to the next 1000, divide by 1000, and multiply by the rate
           for the respective age group. Multiply this amount by the number of multiples
           chosen for Option B Life Insurance. Compare the calculated amount to the
           amount withheld for Option B Life Insurance. Report any differences
           resulting from this step and obtain management’s explanation for the
           differences.

       •   For Option C: Inspect the SF-2817 to obtain the number of multiples chosen
           for Option C. Locate the employee’s age group using the age groups provided
           for Option C in the FEGLI Program Booklet. Multiply the rate for the age
           group by the number of multiples chosen for Option C Life Insurance.
           Compare the calculated amount to the amount withheld for Option C Life
           Insurance. Report any differences resulting from this step and obtain
           management’s explanation for the differences.

Results
We identified one difference for the Army, one for the Navy, one for NGB, one for ODO,
five for EPA, and one for VA. DOE auditors identified two differences. HHS auditors
identified three differences. For these differences, the applicable SF-2817s were missing
or incomplete or the SF-50 was processed late; DFAS had made retroactive pay
adjustments to the pay system amounts; or Human Resources or DFAS management did
not provide an adequate explanation.

Procedure 3.
Randomly select a total of 10 employees who have no Health Benefits withholdings from
the payroll information corresponding to the three RITS submissions selected above and
perform the following for each employee selected.

Procedure 3.a.
Obtain SF-2809s covering the pay periods in the RITS submissions chosen, either in
electronic or hard copy format, from the selected employee’s OPF or, if applicable,
obtain a report (via the agency personnel office ) from the agency’s automated system
that allows participants to change benefits, (for example, Employee Express), for any
Health Benefit transactions in that system for the individuals selected. Hard copies can
be originals or certified copies. Inspect the documentation (that is, SF-2809 or the
agency’s system-generated report) to identify whether health benefits coverage was not
elected. This can be identified in the following ways:


                                                                               Attachment
                                                                              Page 6 of 13
           •   absence of an SF-2809 in the OPF and no election of coverage made
               through the agency’s automated system that allows participants to change
               benefits (for example, Employee Express); or
           •   an SF-2809 in the OPF with Section E checked (indicating cancellation
               of coverage) and no later election of coverage through the agency’s
               automated system that allows participants to change benefits (for
               example, Employee Express); or
           •   cancellation of coverage through the agency’s automated system that
               allows participants to change benefits (for example, Employee Express)
               and no later election of coverage with an SF-2809.

Procedure 3.b.
Compare the result in step 3.a. to the RITS submissions. Report any differences resulting
from this step and obtain management’s explanation for the differences.

Results
We identified one difference for NGB, one for ODO, and one for VA. The applicable
SF-2809s or the SF-2810s were missing; or Human Resources or DFAS management did
not provide an adequate explanation for the difference.

Procedure 4.
Randomly select a total of 10 employees who have no Life Insurance withholdings from
the payroll information corresponding to the three RITS submissions selected above and
perform the following for each employee selected.

Procedure 4.a.
Obtain the SF-2817s covering the pay periods in the RITS submissions chosen, either in
electronic or hard copy format, from the selected employee’s OPF. Hard copies can be
originals or certified copies. Inspect the SF-2817 to identify that the employee waived or
cancelled Basic Life Insurance coverage.

Procedure 4.b.
Compare the result in step 4.a. to the RITS submissions. Report any differences resulting
from this step and obtain management’s explanation for the differences.

Results
DOE auditors identified one difference. The SF-2817 was missing.

Procedure 5.
Calculate the headcount reflected on the September 2010 and March 2011 Semiannual
Headcount Report selected, as follows.




                                                                              Attachment
                                                                             Page 7 of 13
Procedure 5.a.
Obtain existing payroll information (from step 1.a.) supporting each Supplemental
Semiannual Headcount report. If existing payroll data is not available, obtain a payroll
system query that summarizes detailed payroll data supporting each Supplemental
Semiannual Headcount Report, as follows:

       •   Benefit Category (see Semiannual Headcount Report).
       •   Dollar Amount of withholdings and contributions.
       •   Number Enrolled (deductions made/no deductions).
       •   Central Personnel Data File Code.
       •   Aggregate Base Salary.

Procedure 5.b.
Recalculate the Headcount reflected on each Semiannual Headcount Report. If an
electronic file is not available, a suggested method of recalculating the Headcount is as
follows: (1) estimate the number of employees per payroll register page by counting the
employees listed on several pages, (2) count the number of pages in the payroll register,
and (3) multiply the number of employees per page by the number of pages, or count
(using a computer audit routine) the number of employees on the payroll data file for the
period.

Procedure 5.c.
Compare the payroll information obtained in step 5.a. and the calculated headcount from
step 5.b. to the information shown on each respective Semiannual Headcount Report.

Procedure 5.d.
Report any differences (for example, gross rather than net) greater than 2 percent between
the headcount reporting on each respective agency Semiannual Headcount Report and
payroll information from step 5.a. and the calculated Headcount from step 5.b. Obtain
from management a management official name, telephone number, an e-mail address,
and an explanation for the differences.

Results
There were no differences greater than 2 percent for this comparison.

Procedure 6.
Calculate employer and employee contributions for Retirement, Health Benefits, and Life
Insurance as follows:

Procedure 6.a.
Calculate Retirement withholdings and contributions for the three pay periods selected in
step 1.a., as follows:



                                                                               Attachment
                                                                              Page 8 of 13
Procedure 6.a.i.
Multiply the Civil Service Retirement System and FERS payroll base by the withholding
and employer contribution rates required by law.

Procedure 6.a.ii.
Compare the calculated totals from step 6.a.i. to the related amounts shown on the RITS
submissions. Report any differences (for example, gross rather than net) between the
calculated amounts and the amounts reported on the RITS submissions greater than
5 percent of the amounts on the RITS submission, and obtain management’s explanation
for the differences.

Results
There were no differences greater than 5 percent for this comparison with the exception
of our Civil Service Retirement System agency contribution calculation for pay period
ending August 28, 2010, for the Overseas Army/DoD payroll office. The difference of
$24,583 occurred because an employee was incorrectly coded for FERS instead of Civil
Service Retirement System.

Procedure 6.b.
Calculate employee withholdings and employer contributions for Health Benefits for the
three pay periods selected in step 1.a., as follows:

Procedure 6.b.i.
Multiply the number of employees enrolled in each Health Benefits plan and plan option
by the employee withholdings and employer contributions for the plan and option.

Procedure 6.b.ii.
Sum the totals in step 6.b.i. and compare the result with the Health Benefit withholding
and contribution amounts shown on the RITS submissions. Report any differences (for
example, gross rather than net) between the calculated amounts and the amounts reported
on the RITS submissions greater than 5 percent of the amounts on the RITS submission,
and obtain management’s explanation for the differences.

Results
There were no differences greater than 5 percent for this comparison.

Procedure 6.c.
Calculate the Basic Life Insurance employee withholdings and employer contributions
for the three pay periods selected in step 1.a., as follows:

Procedure 6.c.i.
Obtain a payroll system query from Agency Payroll Provider personnel to obtain the total
number of employees with Basic Life Insurance coverage and the aggregate annual basic
pay for all employees with Basic Life Insurance.
                                                                           Attachment
                                                                          Page 9 of 13
Procedure 6.c.ii.
For employee withholdings: Add the product of 2,000 times the number of employees
with Basic Life Insurance coverage from step 6.c.i. above to the aggregate annual basic
pay for all employees with Basic Life Insurance from step 6.c.i. above to calculate the
estimated total Basic Life Insurance coverage. Divide this calculated total by 1,000 and
multiply by the withholding rate required by law. The Life Insurance withholding rates
can be found in the FEGLI Program Booklet on OPM’s website.

Procedure 6.c.iii.
Compare the result in step 6.c.ii. to the withholdings for Basic Life Insurance coverage
reported on the RITS submission. Report any difference (for example, gross rather than
net) between the estimate and the amount of withholdings reported on the RITS
submission greater than 5 percent of the amounts on the RITS submission, and obtain
management’s explanation for the difference.

Results
There were no differences greater than 5 percent for this comparison.

Procedure 6.c.iv.
For agency contributions: Divide the results of step 6.c.ii. by two—this approximates
agency contributions, which are one-half of employee withholdings. Compare this result
to the amount reported on the RITS submission. Report any differences (for example,
gross rather than net) between the estimated amount and the actual amount reported on
the RITS submission greater than 5 percent of the amounts on the RITS submission, and
obtain management’s explanation for the differences.

Results
There were no differences greater than 5 percent for this comparison.

Procedure 6.d.
Calculate the Option A, Option B and Option C Life Insurance coverage withholdings for
the three pay periods selected by using detail payroll reports used to reconcile the RITS
reports in Step 1. In addition to the information used for step 1, the reports should
include the employee's date of birth, annual rate of basic pay, and number of multiples
selected for Option B and C. Note: While similar to step 2.j., the calculation at this step
is for the entire amount reported on the RITS submissions for the three pay periods
selected, as opposed to the sample of 25 employees in step 2.j.

Procedure 6.d.i.
Multiply the number of employees in each age group by the appropriate rate for Option A
in accordance with the rates for age groups provided in the FEGLI Program Booklet.




                                                                               Attachment
                                                                             Page 10 of 13
Procedure 6.d.ii.
Compare the result in step 6.d.i. to the amounts for Option A reported on the RITS
submissions. Report any differences (for example, gross rather than net) greater than
2 percent of the amounts on the RITS submission, and obtain management’s explanation
for the differences.

Results
There were no differences greater than the 2-percent threshold for this Option A
comparison with the exception of the Overseas Army/DoD payroll office difference of
$115 for the pay period ending February 26, 2011. DFAS stated that the difference for
this payroll office was primarily attributable to retroactive pay adjustments.

Procedure 6.d.iii.
Segregate the reports for Option B and Option C insurance into the age groups shown in
the FEGLI Program Booklet. For Option B, round the employee's annual rate of basic
pay up to the next 1000, divide by 1000, multiply by the rate for the age group, multiply
this by the number of multiples:

(Annual rate of basic pay (rounded up) /1000*rate*multiples).

For Option C, multiply the rate for the age group by the number of multiples chosen for
each employee.

Procedure 6.d.iv.
Compare the result in step 6.d.iii. to the amounts for Option B and Option C,
respectively, reported on the RITS submissions. Report any differences (for example,
gross rather than net) greater than 2 percent of the amounts on the RITS submission for
Option B or Option C, and obtain management’s explanation for the differences.

Results
There were no differences greater than 2 percent for this comparison for Option B except
for the Overseas Army/DoD payroll office difference of $4,517 for the pay period ending
February 26, 2011. DFAS stated that some of this difference was attributable to FEGLI
refunds and debt collections. DFAS could not adequately explain the remaining
difference.

There were differences for Option C, which occurred in each of the three pay periods
selected. For pay period ending August 28, 2010, the Army/DoD and Overseas DoD
payroll offices had differences of $7,250 and $1,000 respectively, over the 2-percent
threshold. For pay period ending October 23, 2010, the ODO payroll office had a
difference of $3,593 over the 2-percent threshold. For pay period ending February 26,
2011, Army/DoD and Overseas Army/DoD showed differences of $12,548 and $542
respectively, over the 2-percent threshold. DFAS management explained that these
differences were primarily attributable to retroactive FEGLI deductions.

                                                                              Attachment
                                                                            Page 11 of 13
Procedure 7.
Compare the list of field offices/duty stations to the list of local CFC campaigns obtained
from OPM’s OCFCO.

Procedure 7.a.
Determine in which campaign each field office/duty station is located. (Note: It is
possible for a field office/duty station to be in a location with no local CFC campaign.)

Results
There were no differences for this comparison.

Procedure 8.
Compare the list of accounting codes to the identified campaigns for each field
office/duty station.

Procedure 8.a.
Determine the accounting code for each field office/duty station.

Procedure 8.b.
Determine if the name of the campaign, the PCFO and address of the PCFO in the
Agency Payroll Provider system agree to the information for that field office/duty station
on the list of local CFC campaigns obtained from OPM’s OCFCO.

Results
We determined that the name of the campaign, PCFO, and address of the PCFO in the
Defense Civilian Pay System agreed with the OPM list of CFC campaign codes, except
for 22 out of 220 Defense Civilian Pay System codes. DFAS personnel stated that they
would update the codes in the Defense Civilian Pay System.

Procedure 9.
Sort the report of all employees with CFC deductions by Official Duty Station.

Procedure 9.a.
Compare the Official Duty Stations to the campaigns identified for those locations.

Procedure 9.b.
Compare the accounting codes for each employee with CFC deductions to the accounting
code identified for that employee’s Official Duty Station.
       • Determine if this agrees to the accounting code identified for that field
           office/duty station.




                                                                                Attachment
                                                                              Page 12 of 13
Results
We determined that 1,848 out of 179,866 employees with CFC deductions for pay period
ending February 26, 2011, had accounting codes for CFC campaigns that differed from
the accounting codes corresponding to their duty stations. DFAS could not provide an
explanation for the differences. DFAS stated that each customer service representative
from every affected Human Resource office would have to be contacted to get an
explanation for each difference.




                                                                           Attachment
                                                                         Page 13 of 13
